Report No. D-2010-058                          May 14, 2010




     Selected Controls for Information Assurance at the
             Defense Threat Reduction Agency
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASD(NII)/DOD CIO              Assistant Secretary of Defense (Networks and Information
                                 Integration)/DOD Chief Information Officer
CND-SP                        Computer Network Defense-Service Provider
DAA                           Designated Approving Authority
DFARS                         Defense Federal Acquisition Regulation Supplement
DTRA                          Defense Threat Reduction Agency
FISMA                         Federal Information Security Management Act
GAO                           Government Accountability Office
IA                            Information Assurance
IAM                           Information Assurance Management
IASAE                         Information Assurance System Architect and Engineer
IAT                           Information Assurance Technical
NIST                          National Institute on Standards and Technology
----------------------------------------------------




                                    INSPECTOR GENERAL 
 

                                    DEPARTMENT OF DEFENSE 
 

                                      400 ARMY NAVY DRIVE 
 

                                 ARLINGTON, VIRGINIA 22202-4704 
 

                                                                                     MAY 14 ZOlO

   MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                    TECHNOLOGY, AND LOGISTICS
                  ASSISTANT SECRETARY OF DEFENSE (NETWORKS
                    AND INFORMATION INTEGRATION)IDOD CHIEF
                    INFORMATION OFFICER
                  ASSISTANT TO THE SECRETARY OF DEFENSE FOR
                    NUCLEAR AND CHEMICAL AND BIOLOGICAL
                    DEFENSE PROGRAMS
                  DIRECTOR, DEFENSE THREAT REDUCTION AGENCY

   SUBJECT: Selected Controls for Information Assurance at the Defense Threat Reduction
           Agency (Report No. D-201 0-058)

   We are providing this report for your information and use. We considered management
   comments on a draft of this report when preparing the final report. The Assistant
   Secretary of Defense (Networks and Information Integration)IDOD Chief Information
   Officer and the Director, Defense Threat Reduction Agency, comments conformed to the
   requirements of DOD Directive 7650.3; therefore, we do not require additional
   comments.

   We appreciate the courtesies extended to the staff.' Please direct questions to
   Mr. Robert F. Prinzbach II at (703) 604-8907 (DSN 664-8907).



                                               &~~{~
                                                 Acting Assistant Inspector General
                                                 Readiness, Operations, and Support
Report No. D-2010-058 (Project No. D2009-D000LB-0216.000)		                          May 14, 2010


               Results in Brief: Selected Controls for
               Information Assurance at the Defense Threat
               Reduction Agency
                                                          remained active after 30 days. This occurred
What We Did                                               because internal controls were not in place to
The objectives of this audit were to determine            notify information system representatives when
whether personnel responsible for information             personnel left the agency and to ensure that
assurance were certified in accordance with               system administrators review inactive accounts
regulations and whether information system                in accordance with DTRA guidance. As a
accounts were disabled when employees left the            result, unauthorized individuals could have
agency. We reviewed designations of                       accessed sensitive information within agency
information assurance personnel and their                 information systems and networks.
corresponding certification status. We also
reviewed whether information system accounts              What We Recommend
were disabled in a timely manner.                         We recommend that the Assistant Secretary of
                                                          Defense (Networks and Information
What We Found                                             Integration)/DOD Chief Information Officer
As of August 2009, the date of the Defense                (ASD[NII]/DOD CIO) modify DOD 8570.01-M
Threat Reduction Agency (DTRA) response to                to require all DOD information assurance
DOD for the 2009 Federal Information Security             personnel to authorize release of their
Management Act report, DTRA needed 80                     certification qualifications in the Defense
additional information assurance personnel to be          Workforce Certification Application. We also
certified to meet December 2009 certification             recommend that the Director, DTRA:
milestones. DTRA also did not follow                          •		 develop and implement an adequate
regulations for identification and certification of               process to identify information assurance
information assurance personnel. These                            personnel and monitor their certification
conditions occurred because DTRA did not have                     status,
adequate internal controls in place and did not               •		 notify system representatives when
adequately oversee its information assurance                      personnel leave the agency, and
workforce. As a result, the DTRA information                  •		 review active accounts at least monthly
assurance workforce may not have an adequate                      and suspend inactive accounts in
understanding of the concepts, principles, and                    accordance with DTRA guidance.
applications of information assurance to
enhance the protection and availability of                Management Comments and
information systems and networks. In addition,            Our Response
data made available by DTRA to DOD and
                                                          The Acting Deputy Assistant Secretary of
Congress were inaccurate and incomplete.
                                                          Defense (Identity and Information Assurance) in
DTRA did not disable 17 accounts within
                                                          the Office of the ASD(NII)/DOD CIO and the
9 information systems and networks after
                                                          Director, DTRA, agreed with the
personnel left the agency. Additionally, of
                                                          recommendations. Management comments
87 disabled accounts that we reviewed,
                                                          were responsive to the recommendations. No
84 accounts remained active 5 days after the
                                                          additional comments are required.
personnel left the agency, and 66 accounts


                                                      i
Report No. D-2010-058 (Project No. D2009-D000LB-0216.000)                 May 14, 2010

Recommendations Table

         Management                 Recommendations         No Additional Comments
                                   Requiring Comment              Required
Assistant Secretary of Defense                              A.3
(Networks and Information
Integration)/DOD Chief
Information Officer

Director, Defense Threat                                    A.1.a-g, A.2, B.1, and B.2
Reduction Agency




                                          ii
Table of Contents

Introduction                                                                       1



      Objectives                                                                   1


      Background                                                                   1


      Review of Internal Controls                                                  1



Finding A. Identification and Certification of Information Assurance Personnel     3



      Recommendations, Management Comments, and Our Response                      13



Finding B. Disabling of Accounts                                                  17



      Recommendations, Management Comments, and Our Response                      20



Appendix

      Scope and Methodology                                                       22



Management Comments

      Assistant Secretary of Defense (Networks and Information Integration)/DOD 

      Chief Information Officer                                                   25 


      Defense Threat Reduction Agency                                             26 

Introduction
Objectives
The objectives of this audit were to determine whether Defense Threat Reduction Agency
(DTRA) personnel responsible for information assurance (IA) were certified in
accordance with regulations and whether information system accounts were disabled
when employees left the agency. We reviewed designations of information assurance
personnel and their corresponding certification status. We also reviewed whether
information system accounts were disabled in a timely manner. See the Appendix for a
discussion of the scope and methodology and prior coverage related to the objectives.

Background
DTRA is responsible for safeguarding the United States and its allies from weapons of
mass destruction by providing capabilities to reduce, eliminate, and counter the threat and
mitigate their effects. DTRA is a DOD Agency that reports to the Under Secretary of
Defense for Acquisition, Technology, and Logistics through the Assistant to the
Secretary of Defense for Nuclear and Chemical and Biological Defense Programs.

The Assistant Secretary of Defense for Networks and Information Integration/DOD Chief
Information Officer (ASD[NII]/DOD CIO) is the principal staff assistant and advisor to
the Secretary of Defense for DOD information and information technology matters
including IA.

The Federal Information Security Management Act (FISMA) of 2002 was passed as part
of the E-Government Act of 2002 (Public Law 107-347). FISMA provides a
comprehensive framework for ensuring the effectiveness of information security controls
over information resources that support Federal operations and assets. Each Federal
agency (for example, DOD) is required to report annually to Congress on compliance
with requirements and the adequacy and effectiveness of information security policies,
procedures, and practices.

DOD Directive 8500.01E, “Information Assurance,” October 24, 2002, establishes policy
to achieve IA across DOD. DOD Instruction 8500.02, “Information Assurance
Implementation,” February 6, 2003, implements policy and prescribes procedures for
applying integrated, layered protection of DOD information systems and networks. DOD
Instruction 8500.02 defines IA as measures that protect and defend information and
information systems by ensuring their availability, integrity, authentication,
confidentiality, and non-repudiation.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control


                                             1


weaknesses for DTRA. DTRA did not have the following internal controls to adequately
identify their IA workforce and monitor the IA workforce certification status: an ongoing
process to identify personnel that had IA responsibilities and monitor whether the
personnel obtained the appropriate certifications, a central repository of IA certifications,
and an adequate tracking tool to identify IA personnel and track their progress in
obtaining the appropriate certifications. DTRA did not have internal controls to ensure
that system representatives for all DTRA systems were notified when personnel left the
agency to enable the system representatives to promptly disable system accounts.
Additionally, DTRA did not have internal controls in place to ensure that inactive
accounts were disabled in accordance with agency guidance. Implementing
recommendations A.1 and A.2 will improve DTRA processes to identify its IA workforce
and monitor the IA workforce certification status. Implementing recommendations B.1
and B.2 will improve DTRA processes to disable accounts for personnel that leave the
agency. These improvements will reduce potential vulnerabilities within DTRA’s
information systems. We will provide a copy of the report to the senior official
responsible for internal controls in DTRA and in the Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics.




                                             2


Finding A. Identification and Certification of
Information Assurance Personnel
As of August 2009, the date of the DTRA response to DOD for the 2009 FISMA report,
only 35.2 percent of DTRA IA personnel met certification requirements, and DTRA
needed 80 additional IA personnel to be certified to meet December 2009 certification
milestones. Additionally, DTRA personnel did not follow regulations for identification
and certification of personnel having IA responsibilities. DTRA:

   •		 reported inaccurate information for IA personnel onboard and certified in its
       response to the DOD data call for the 2009 FISMA report,
   •		 did not properly input data on IA personnel in the Defense Civilian Personnel
       Data System, and
   •		 did not require that its IA workforce authorized release of their certification
       information in the Defense Workforce Certification Application.

These conditions occurred because DTRA did not provide adequate oversight of its IA
workforce. DTRA:

   •		 did not have an adequate process in place to identify IA personnel and monitor
       whether IA personnel obtained the appropriate certifications and
   •		 did not ensure that contract language requiring all contractor personnel to be
       certified was added to contracts for IA services.

As a result, DTRA’s IA workforce may not have an adequate understanding of the
concepts, principles, and applications of IA to enhance the protection and availability of
DTRA’s information systems and networks. Further, DOD and Congress did not have
accurate information on DTRA’s IA workforce and progress towards meeting
certification requirements established by DOD guidance.

IA Workforce Background
An IA workforce consists of personnel that focus on the operation and management of IA
capabilities for DOD systems and networks. The workforce ensures that adequate
security measures and established IA policies and procedures are applied to all
information systems and networks.

DOD Directive 8570.01, “Information Assurance Training, Certification, and Workforce
Management,” August 15, 2004, establishes policy and assigns responsibility for DOD
IA training, certification, and workforce management. DOD Manual 8570.01-M,
“Information Assurance Workforce Improvement Program,” December 19, 2005,
implements DOD Directive 8570.01 and provides guidance for the identification and
categorization of positions and certification of personnel conducting IA functions, and
establishes IA workforce oversight and management reporting requirements. The
Defense-Wide Information Assurance Program of the ASD(NII)/DOD CIO provides IA


                                             3


workforce management oversight and coordination for the requirements established in
DOD 8570.01-M. DOD 8570.01-M applies to all civilian, military, and contractor
personnel that perform IA functions.

DOD 8570.01-M requires all DOD Components to identify their IA positions and the
personnel that fill those positions. The DOD Components must designate each IA
position with an IA category or specialty. IA categories and specialties are further
divided into levels based on functional skill requirements and/or system environment
focus. IA categories include:

   •		 IA technical (IAT) Levels I, II, and III and
   •		 IA management (IAM) Levels I, II, and III, as well as the Designated Approving
       Authority (DAA).

IA specialties include:

   •		 IA Systems Architect and Engineer (IASAE) Levels I, II, and III and
   •		 Computer Network Defense Service Provider (CND-SP):
          o		 analyst,
          o		 infrastructure support,
          o		 incident responder,
          o		 auditor, and
          o		 manager.

Personnel that fill an IA position (except a DAA position) are required to obtain a
specific baseline certification as established by DOD 8570.01-M. According to DOD
8570.01-M, baseline certifications are approved certifications that DOD uses to establish
technical and management IA skills across DOD. Further, DOD 8570.01-M requires that
personnel designated in some categories and specialties also obtain a computing
environment certification. Computing environment certifications ensure that personnel
can effectively apply IA requirements to hardware and software systems. Personnel that
fill DAA positions are required to complete an approved DAA-related certification
course. See Table 1 for the certifications required for IA categories and specialties.

        Table 1. Certifications Required for IA Categories and Specialties
  Category/Specialty             Baseline Certification Computing Environment
                                 Required               Certification Required
  IAT Levels I, II, and III      Yes                    Yes
  IAM Levels I, II, and III      Yes                    No
  IASAE Levels I, II, and III    Yes                    No
  CND-SP analyst                 Yes                    Yes
  CND-SP infrastructure support Yes                     Yes
  CND-SP incident responder      Yes                    Yes
  CND-SP auditor                 Yes                    Yes
  CND-SP manager                 Yes                    No



                                            4


DOD 8570.01-M establishes milestones that DOD Components must meet. Specifically,
DOD Components are required to:

   •		 identify their IA workforce positions and fill 10 percent of the IA positions with
       certified personnel by December 31, 2007;
   •		 fill a total of 40 percent of their IA positions with certified personnel by


       December 31, 2008;


   •		 fill a total of 70 percent of their IA positions with certified personnel by


       December 31, 2009;


   •		 fill all IAT and IAM category positions with certified personnel by December 31,
       2010; and
   •		 fill all CND-SP and IASAE specialty positions with certified personnel by 

       December 31, 2011.



DOD Required Certification Milestones and Reporting of
Information Assurance Personnel
As of August 2009, only 35.2 percent of DTRA IA personnel met certification
requirements, and DTRA needed 80 additional IA personnel to be certified to meet
December 2009 certification milestones. Additionally, DTRA personnel did not follow
established guidance for identification and certification requirements of personnel having
IA responsibilities. DTRA:

   •		 reported inaccurate information for IA personnel onboard and certified in its
       response to the DOD data call for the 2009 FISMA report,
   •		 did not properly input data on IA personnel in the Defense Civilian Personnel
       Data System, and
   •		 did not require that its IA workforce authorized release of their certification
       information in the Defense Workforce Certification Application.

DTRA Compliance with DOD Certification Milestones
As of August 2009, only 35.2 percent of DTRA IA personnel met certification
requirements, and DTRA needed 80 additional IA personnel to be certified to meet
December 2009 certification milestones. DOD 8570.01-M required DOD Components to
fill a total of 40 percent of the IA positions with certified personnel by the end of 2008
and fill a total of 70 percent of the positions with certified personnel by the end of 2009.
In the 2008 IA Workforce Improvement Program Report sent to ASD(NII)/DOD CIO,
DTRA reported that 45 percent of its personnel with IA responsibilities obtained
certifications. Based on DTRA’s reported numbers, DTRA exceeded the required
milestone for 2008. However, between the end of 2008 and August 2009, DTRA’s
number of certified personnel decreased. In August 2009, DTRA reported in its official
response for the 2009 FISMA report, that only 31.2 percent of its IA workforce was
certified. DTRA attributed the decrease to a change in a contractor for information
technology services at DTRA. However, as we discuss later in the report, all of the
personnel included in the contract should have been certified prior to beginning work at
DTRA. As of August 2009, we verified that 35.2 percent of the DTRA IA workforce had


                                             5


the appropriate baseline certifications. DTRA needed 80 additional personnel to be
certified prior to the end of 2009 to meet the 70 percent milestone as required by DOD
8570.01-M.

We did not determine whether personnel designated in the IAT category or CND-SP
specialty obtained the appropriate computing environment certifications because the
DOD Components did not have to include the number of personnel that held a computing
environment certification in the 2009 FISMA response. However, according to FISMA
instructions, the 2009 IA Workforce Improvement Program Report, due on December 31,
2009, requires that DOD Components report the number of personnel that have obtained
computing environment certifications. Based on documentation that we received, a
substantially lower number of DTRA personnel have obtained both the IA baseline and
computing environment certifications. Once FISMA requires agencies to report this
information, DTRA’s percentage of personnel that are adequately certified may decrease
significantly.

DTRA’s Response to DOD Data Call for 2009 FISMA Report
DTRA reported inaccurate information for IA personnel onboard and certified in its
response to the DOD data call for the 2009 FISMA report. DTRA reported in August
2009 that it had 205 IA personnel, of which 64 were certified (31.2 percent). However,
we found that DTRA had 230 IA personnel, of which 81 were certified (35.2 percent).
DTRA’s August 2009 report had multiple errors and was incomplete. Table 2 provides a
summary of DTRA’s FISMA response and our results of verified IA personnel and
certifications.

                Table 2. DTRA IA Personnel and Personnel Certified
               DTRA 2009 FISMA Response           Inspector General-Verified Data
 Category      # IA         #           %          # IA          #           %
             Personnel   Certified   Certified   Personnel    Certified   Certified
IAT I               28          5       17.9%           32           7       21.9%
IAT II             156         52       33.3%          158          63       39.9%
IAT III              4          3       75.0%            4           3       75.0%
IAM I                1          0        0.0%            1           0        0.0%
IAM II              11          2       18.2%           12           1        8.3%
IAM III              4          1       25.0%            7           2       28.6%
CND-SP               0          0        0.0%           13           4       30.8%
IASAE                0          0        0.0%            2           0        0.0%
DAA                  1          1     100.0%             1           1     100.0%
Total              205         64      31.2%           230          81      35.2%


We identified that the IA workforce information for DTRA within the 2009 FISMA
response was inaccurate and incomplete.




                                             6
We identified the following types of errors:

   •   mathematical inaccuracies,
   •   IA personnel and certifications excluded from 2009 FISMA response,
   •   incorrect category or specialty for personnel and certifications, and
   •   improper certifications for IA category.

Mathematical Accuracy
DTRA personnel miscounted the number of IA personnel in the DTRA IA workforce, as
well as the number of IA personnel that were certified. We initially attempted to
reconcile the 2009 FISMA response data to documentation that DTRA provided;
however, the documentation did not always match DTRA’s 2009 FISMA response.

We found 12 mathematical errors in DTRA’s reported numbers for IA personnel. As a
result, DTRA had undercounted the number of IA personnel by four. Additionally, we
found one mathematical error in DTRA’s reported numbers for certified personnel
resulting in an understatement of one certified person.

Additional IA Personnel and Certifications
DTRA should have included an additional 21 IA personnel as part of the 2009 FISMA
response. Specifically, we identified 19 additional IA personnel and 19 additional
certifications that DTRA had not identified prior to their FISMA response. DTRA
counted certifications for two contractor personnel that were not included in the number
of personnel within the IA workforce. DTRA personnel agreed that those two personnel
should have been included in the number of personnel within the IA workforce in the
FISMA response.

Categorization of Personnel and Certifications
DTRA did not appropriately categorize personnel and corresponding certifications in
their 2009 FISMA response. We learned from personnel with oversight responsibilities
of the Network Operations Support Center that 12 DTRA personnel designated at the
IAT II Level in the FISMA response were actually performing CND-SP functions.
Additionally, 4 of the 12 personnel had certifications, which DTRA also counted at the
IAT II Level on the 2009 FISMA response. DOD 8570.01-M was modified on May 15,
2008, to require DOD Components to identify any personnel performing CND-SP or
IASAE functions in its FISMA response.

Appropriateness of Certifications for IA Category and Level
Three personnel identified on the 2009 FISMA response did not have the correct
certification for their designated category and level, which caused the number of certified
personnel to be overstated by three. For example, one of the employees at the IAT II
Level had obtained the Certified Information Security Management certification. A
DTRA official stated that they included this certification in the FISMA response;
however, the DOD 8570.01-M requires personnel at the IAT II Level to obtain a Global
Information Assurance Certification Security Essentials Certification, Security+



                                               7


certification, Security Certified Network Professional certification, or System Security
Certified Practitioner certification.

Table 3 identifies the discrepancies in IA personnel data included in the 2009 FISMA
response.

           Table 3. IA Personnel Data Discrepancies in 2009 FISMA Response
  Category            DTRA             Math             IA              Incorrect        Verified
                      FISMA            Errors        Personnel          Category/
                     Response                        Excluded           Specialty
IAT I                    28              4                  0                 0               32
IAT II                  156             -2*                16               -12              158
IAT III                   4              0                  0                0                 4
IAM I                     1              0                  0                0                 1
IAM II                   11              1                  0                0                12
IAM III                   4              1                  2                0                 7
CND-SP                    0              0                  1               12                13
IASAE                     0              0                  2                0                 2
DAA                       1              0                  0                0                 1
Total                   205              4                 21                0               230
* Result of a DTRA overcount of the number of contractors by four and an undercount of the number of
civilians by two.

Table 4 identifies the discrepancies in IA certifications included in the 2009 FISMA
response.

           Table 4. IA Certifications Discrepancies in 2009 FISMA Response
Category      DTRA            Math       Certifications         Incorrect       Improper       Verified
              FISMA           Errors      Excluded              Category/      Certificate
             Response                                           Specialty     for Category
IAT I            5              1               1                   0               0                7
IAT II          52              0               17                 -4               -2              63
IAT III          3              0               0                   0                0               3
IAM I            0              0               0                   0                0               0
IAM II           2              0               0                   0               -1               1
IAM III          1              0               1                   0                0               2
CND-SP           0              0               0                   4                0               4
IASAE            0              0               0                   0                0               0
DAA              1              0               0                   0                0               1
Total           64              1               19                  0               -3              81




                                                     8


IA Personnel Data in the Defense Civilian Personnel Data
System
DTRA did not properly input data on IA personnel in the Defense Civilian Personnel
Data System. DOD 8570.01-M requires DOD Components to enter information into the
Defense Civilian Personnel Data System for civilian personnel with IA responsibilities.
Further, the Director, Civilian Personnel Management Service, and the Under Secretary
of Defense for Personnel and Readiness instructed DOD Components in June 2007 and
August 2008, respectively, to enter data into the Defense Civilian Personnel Data System
for those civilian personnel with IA responsibilities. As of July 2009, personnel from the
Civilian Personnel Management Service stated that they were unable to identify any IA
data for DTRA civilians within the Defense Civilian Personnel Data System and that
DTRA should designate these positions. We met with DTRA personnel who are
responsible for submitting information to the Defense Logistics Agency so the
information could be put in the system. The personnel stated that they had not received
the required information from the DTRA personnel responsible for the IA workforce
program. Therefore, as of September 2, 2009, DTRA had not provided IA information to
the Defense Logistics Agency so the information could be put in the system. The Under
Secretary of Defense for Personnel and Readiness emphasized in his August 2008
memorandum the importance of entering proper and accurate data into the Defense
Civilian Personnel Data System by stating that it is “paramount to accurate workforce
management, analysis, and reporting.” Additionally, the 2009 FISMA guidance states
that the Defense Civilian Personnel Data System will be used for reporting the status of
all Component civilian positions and personnel for the 2009 IA Workforce Improvement
Program annual report due on December 31, 2009. DTRA should populate the required
fields for those civilians with IA responsibilities to comply with DOD requirements and
to better track IA personnel.

Information in the Defense Workforce Certification Application
DTRA did not ensure that its IA workforce authorized release of certification information
in the Defense Workforce Certification Application. A document published by the
Defense Information Systems Agency stated that IA workforce personnel must access the
Defense Workforce Certification Application and authorize the release of their
certification information from the certification vendor to DOD. The Defense Information
Systems Agency document stated that releasing the certification status to DOD using the
Defense Workforce Certification Application is the official means of notifying DOD of
their certification status, and that the application is the official source of IA certification
information for civilian, military, and contractor personnel. The application is intended
to populate personnel databases, such as the Defense Civilian Personnel Data System
with information. This would serve as verification that personnel, particularly civilians,
have in fact obtained their certifications. However, DOD 8570.01-M makes no mention
of the application. Instead, DOD 8570.01-M states that “all personnel must agree to
release their certification qualification(s) to the Department of Defense.” If the
ASD(NII)/DOD CIO wants to mandate that DOD Components use the Defense
Workforce Certification Application, it should establish policy or modify DOD
8570.01-M. Additionally, DTRA should require their IA workforce to authorize release
of their certification information using the Defense Workforce Certification Application.


                                              9


DTRA Oversight of IA Workforce
DTRA did not meet the certification milestones established by DOD 8570.01-M and did
not accurately report its IA personnel and certification progress in the 2009 FISMA
response or to DOD because DTRA did not adequately oversee its IA workforce.
Specifically, DTRA:

   •		 did not have an adequate process in place to identify IA personnel and monitor
       whether the IA personnel obtained the appropriate certifications and
   •		 did not ensure that contract language requiring all contractor personnel to be
       certified was added to contracts for IA services.

Process Used to Identify IA Personnel and Monitor Certifications
DTRA did not have an adequate process in place to identify IA personnel and monitor
whether the IA personnel obtained the appropriate certifications. Specifically, DTRA did
not:
    •		 have an ongoing process in place to identify personnel that had information
        assurance responsibilities and monitor whether the personnel obtained the
        appropriate certifications,
    •		 track whether new personnel obtained the required certifications,
    •		 maintain a central repository of IA certifications, and
    •		 have an adequate tool to identify IA personnel and track their progress in


        obtaining the appropriate certifications. 


Ongoing Process to Identify IA Workforce and Monitor Certifications
DTRA did not have an ongoing process in place to identify personnel that had IA
responsibilities and monitor whether those personnel obtained the appropriate
certifications. The DTRA official responsible for compiling IA personnel data stated that
DTRA performed a data call in early July 2009 asking each program manager to identify
personnel within their area that had IA responsibilities. The DTRA official stated that
she did not receive many responses. Further, of the information that DTRA personnel did
have, DTRA had not verified the information until 2 weeks before the 2009 FISMA
response was due. We believe this contributed to some of the errors we found in the
FISMA response. DTRA could become cognizant of their IA workforce by establishing
an ongoing process to obtain feedback from designated points of contact throughout the
agency to identify when new IA personnel come onboard and to know which of the
current personnel perform IA functions. In addition, this process would provide more
timely notice of personnel who had recently obtained the appropriate IA certifications.
Further, DTRA personnel responsible for identifying the IA workforce should verify the
information provided by these points of contact.

Tracking of New Personnel
DTRA did not track whether new civilian and military personnel obtained the required
certifications within 6 months. DOD 8570.01-M requires that IA civilian and military
personnel obtain the appropriate certifications within 6 months of beginning their
positions unless a waiver is granted. If personnel do not obtain the appropriate


                                           10

certifications within the timeframe, they are not permitted to execute the responsibilities
of the position or not permitted privileged system access. According to the Defense-
Wide Information Assurance Program, personnel must be certified within 6 months of
beginning a job, even when switching from one internal position to another. The DTRA
official responsible for compiling IA personnel data stated that DTRA does not track
arrival dates for personnel with IA responsibilities. DTRA should identify and track
whether new civilian and military information assurance personnel obtain the appropriate
certifications within 6 months of beginning work in an information assurance position in
accordance with DOD 8570.01-M.

DTRA and contractor personnel also did not ensure that one contractor provided certified
IA contractor personnel prior to beginning work at DTRA. One of the seven contracts
that provided for personnel with IA responsibilities included a required Defense Federal
Acquisition Regulation Supplement (DFARS) clause in the contract language, which
requires IA contractor personnel to be certified in accordance with DoD 8570.01-M.
However, based on information provided by a contractor representative, neither the
contractor nor the contracting officer ensured that the IA contractor personnel were
certified prior to beginning work at DTRA.

DFARS 252.239-7001, “Information Assurance Contractor Training and Certification,”
includes the clause that requires the contractor to provide a certified IA workforce. DOD
8570.01-M requires contractor personnel performing IA functions to be “appropriately
certified prior to being engaged” and states that the contracting officer should ensure that
contractor personnel are appropriately certified.

According to a file obtained from the contractor used to monitor the certification status of
its contractor personnel, 57 personnel of 124 (or 46 percent) had the appropriate
certifications as of August 2009. According to the contractor, as of September 2009, the
contractor increased the number of its own contractor personnel with IA baseline
certifications to 62 percent. According to the information provided by the contractor
representative, the contractor has made progress in increasing its number of certified
personnel. The contractor and the contracting officer should ensure that all of their
personnel in IA positions at DTRA are certified.

Central Repository of Certifications
The DTRA official responsible for overseeing DTRA’s compliance with DOD
8570.01-M requirements did not maintain a central repository of all IA certifications. We
requested supporting documentation that substantiated the FISMA submissions, but the
DTRA official stated that DTRA did not maintain this information. During the course of
the audit, the DTRA official began to collect copies of certifications. DTRA should
maintain a central repository of all IA certifications to ensure that personnel have met the
requirements. In addition, the repository will serve as support for future FISMA and
DTRA IA Workforce Improvement Program reports.




                                             11


Tool for Identification and Tracking of IA Personnel
DTRA did not have an adequate tracking tool to identify personnel in the IA workforce
or monitor whether they have obtained the appropriate certifications. During our initial
visit in July 2009, a DTRA official provided us with an IA tracking spreadsheet that
listed the DTRA IA workforce and the certifications they obtained. However, the official
stated that the spreadsheet was unreliable and, in August 2009, stated that DTRA did not
use it to answer the 2009 FISMA response. When we asked for documentation that
supported the 2009 FISMA response, the official provided documents with highlights,
crossed-out names, asterisks with no explanations, and hand-written annotations. We
reviewed each item on the 2009 FISMA response with the official to identify the IA
workforce and certifications and found many errors. By not having an adequate tracking
tool to identify the IA workforce or the certifications that they obtained, DTRA
incorrectly reported its IA workforce in the 2009 FISMA response. We believe that
establishing and maintaining a tracking tool (for example, a database or spreadsheet) will
help reduce the number of errors in DTRA’s reporting of IA personnel and their
certifications.

Inclusion of Clause in IA Contracts
DTRA did not ensure that contracting officers added contract language requiring all IA
contractor personnel to be certified to contracts for IA services. DFARS 239.7103(b)
requires the use of the clause from DFARS 252.239-7001 in solicitations and contracts
involving performance of IA functions. DTRA did not include the required DFARS
clause in six of seven contracts we identified for IA services. Further, the DOD 8570.01­
M requires that contract language must specify certification requirements as established
by the manual, and that existing contracts must be modified at an appropriate time to
include the requirements. The DFARS clause requires each contractor to ensure that
contractor personnel have the appropriate baseline and computing environment
certifications. In addition, the clause requires that personnel who do not have the
appropriate certifications be denied access to DOD information systems. DTRA should
include the appropriate DFARS clause in new contracts for performance of IA functions
and should modify existing contracts to include this clause so that contractors are bound
to these contractual requirements.

Summary
DOD 8570.01-M establishes baseline IA technical and management skills among
personnel performing IA functions across DOD. Further, DOD 8570.01-M attempts to
provide a mechanism to verify IA workforce knowledge and skills through standard
certification testing. DTRA personnel did not follow established guidance for
identification and certification requirements of personnel having IA responsibilities.
Specifically, DTRA did not meet certification requirements for IA personnel, did not
properly report IA information to DOD in their 2009 FISMA response, and did not input
IA information into the Defense Civilian Personnel Data System and the Defense
Workforce Certification Application. These conditions occurred because DTRA did not
adequately oversee its IA workforce. Specifically, DTRA did not have an adequate
process in place to identify IA personnel and monitor whether IA personnel obtained the



                                           12


appropriate certifications and did not ensure that contracting officers added contract
language requiring all contractor personnel to be certified to contracts for IA services. As
a result, DTRA’s IA workforce may not have an adequate understanding of the concepts,
principles, and applications of IA to enhance the protection and availability of DTRA’s
information systems and networks. Further, DOD and Congress did not have accurate
information on DTRA’s IA workforce and progress towards meeting milestones
established by DOD 8570.01-M.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Defense Threat Reduction Agency, develop
and implement an adequate process to identify information assurance workforce
personnel within the Defense Threat Reduction Agency and monitor whether the
information assurance workforce obtains the appropriate certifications. Specifically
the Director, Defense Threat Reduction Agency, should:

       a. Establish an ongoing process through the use of designated points of
contact to identify information assurance personnel and to monitor whether the
information assurance personnel obtain the appropriate certifications.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will establish a
process with designated personnel to identify information assurance personnel and will
determine whether personnel obtained the appropriate certifications.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

      b. Develop an adequate tool to identify and track the information assurance
personnel.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will procure or
develop a process to track the information assurance workforce.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.




                                            13


       c. Track whether new civilian and military information assurance personnel
obtain the appropriate certifications within 6 months of beginning work in an
information assurance position.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will develop a tool
to track information assurance personnel.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

      d. Ensure that contractors provide only certified information assurance
personnel.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed and stated that the Designated
Approving Authority issued a letter on January 6, 2010, directing a contractor to ensure
that its information assurance workforce meet DOD 8570.01-M certification
requirements within 6 months.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

      e. Maintain a central repository of certifications for information assurance
personnel.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will maintain
electronic and hard copy certifications of its information assurance workforce.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

      f. Enter the required information assurance position information into the
Defense Civilian Personnel Data System.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency personnel will enter



                                           14


the information assurance workforce data into the Defense Civilian Personnel Data
System by October 1, 2010.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

        g. Require information assurance personnel to authorize release of their
certification information in the Defense Workforce Certification Application.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will require all
information assurance personnel to authorize the release of their certification information
in the Defense Workforce Certification Application.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

A.2. We recommend that the Director, Defense Threat Reduction Agency, include
the clause in the Defense Federal Acquisition Regulation Supplement 252.239-7001
in new contracts for the performance of information assurance functions and
modify existing contracts at an appropriate time to include the clause.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will include the
clause in DFARS 252.239-7001 in new contracts and it will review and modify existing
contracts where appropriate.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

A.3. We recommend that the Assistant Secretary of Defense (Networks and
Information Integration)/DOD Chief Information Officer modify DOD 8570.01-M
to require all DOD information assurance personnel to authorize release of their
certification information in the Defense Workforce Certification Application.

Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer Comments
The Acting Deputy Assistant Secretary of Defense (Identity and Information Assurance)
in the Office of the Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer agreed. The Acting Deputy Assistant


                                            15


Secretary stated that the Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer modified Change 2 of DOD 8570.01-M to
include a requirement for the information assurance workforce to request release of their
certification status to DOD through the Defense Workforce Certification Application.

Defense Threat Reduction Agency Comments
Although not required to comment, the Director, Defense Threat Reduction Agency,
agreed that the Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer should modify DOD 8570.01-M to require
all DOD information personnel to authorize release of their certification information in
the Defense Workforce Certification Application.

Our Response
The comments from the Acting Deputy Assistant Secretary of Defense (Identity and
Information Assurance) are responsive, and the actions meet the intent of the
recommendation.




                                           16


Finding B. Disabling of Accounts
DTRA did not disable information system accounts in a timely manner after personnel
left the agency. Specifically, DTRA did not disable 17 accounts within 9 information
systems and networks after personnel left the agency. Additionally, of 87 disabled
accounts that we reviewed, 84 accounts remained active * more than 5 days after the
personnel left the agency, and 66 accounts remained active more than 30 days. The
accounts remained active because:

    •		 system representatives for most DTRA systems reviewed were not notified when
        personnel left the agency and
    •		 DTRA system administrators did not consistently review information system
        accounts that had not been used in a 30-day period.

Although we found no instances of unauthorized access after personnel left DTRA, the
individuals could have accessed sensitive information within DTRA information systems
and networks.

Guidance for Disabling Accounts
DOD Instruction 8500.02 states that individual accounts designated as inactive,
suspended, or terminated should be promptly deactivated.

The National Institute on Standards and Technology (NIST) issued Special
Publication 800-53, “Recommended Security Controls for Federal Information Systems
and Organizations,” Revision 3, August 2009, to provide guidance for recommended
security controls for Federal information systems. NIST Special Publication 800-53
states that an organization should manage information system accounts by notifying
account managers when temporary accounts are no longer required, information system
users leave the agency or are transferred, or information system usage or user need-to­
know changes. Further, NIST Special Publication 800-53 states that organizations should
deactivate temporary accounts that are no longer required and deactivate accounts of
users who leave the agency or are transferred.

DTRA issued its internal DTRA Directive 8500.01, “Defense Threat Reduction Agency
(DTRA) Information Assurance (IA),” January 29, 2007, to establish policy, define roles
and assign responsibilities to achieve IA within DTRA. DTRA Directive 8500.01 states
that user accounts will be removed or reassigned within 2 days of notification that a user
no longer requires access to the system. The Directive states that users and supervisors
are responsible for notifying system administrators or IA officers when access is no
longer required. Further, DTRA Directive 8500.01 states that system administrators will
suspend user accounts and passwords that have not been used in a 30-day period.



*
  We consider information system accounts active if the ability to log into the system and access
information has not been disabled.


                                                    17

Disabling of Accounts
DTRA did not disable 17 accounts after personnel left the agency. Additionally, for
some of the accounts that DTRA disabled, they did not do so in a timely manner.

Review of Active Accounts
DTRA did not disable 17 accounts within 9 information systems and networks after
personnel left the agency. We reviewed active accounts for 17 systems at DTRA
including one mission-critical system, 15 mission-essential systems, and one mission-
support system (see the Appendix for additional details on how we selected the DTRA
systems for review). We found that 17 accounts within 9 of the 17 systems remained
active after personnel had left the agency. Those 17 active accounts included accounts
for civilian, military, and contractor personnel and visitors to DTRA. These accounts
remained active for a period of 33 to 128 days, averaging 65 days, after the personnel had
left the agency. Table 5 provides details of the active accounts we found for personnel
who had left DTRA and the length of time since they had left.

                Table 5. Active Accounts for Personnel Who Left DTRA
System          Number of Active        Days Active after   Days Active after
              Accounts for Personnel        Departure           Departure
                  that Departed                                 (Average)
A                        1                      48                 48
B                        5                   35 – 128              60
C                        2                    36 – 56              46
D                        1                      37                 37
E                        3                    85 – 97              91
F                        1                      90                 90
G                        1                      97                 97
H                        2                   34 – 105              70
I                        1                      33                 33
Total                   17                   33 - 128              65*
*Average days for all 17 accounts rather than average for each of the systems.

Timeliness of Disabling of Accounts
Of 87 disabled accounts that we reviewed, 84 accounts remained active 5 days after the
personnel left the agency, and 66 accounts remained active for over 30 days. We
attempted to obtain disabled account listings with the dates that the accounts were
disabled for all 17 systems that we reviewed; however, we were only able to obtain
4 complete disabled account listings. We could not obtain listings for many of the
systems because of system capabilities. We were able to review 87 accounts that were
disabled on or after the date personnel left the agency for the 4 listings we received. The
amount of time it took DTRA personnel to disable the accounts from when the personnel
left DTRA ranged from 1 day to 1,392 days and averaged 455 days.



                                                    18

Table 6 provides details of the timeliness of disabling accounts for the four account
listings we were able to review.

                     Table 6. Timeliness of Disabling of Accounts
                       Days Before Accounts       # of Accounts
                           Were Disabled
                               0-5 Days                  3
                              6-10 Days                  7
                             10-30 Days                 11
                         More than 30 Days              66
                                 Total                  87

Internal Controls Over Disabling Accounts
DTRA did not disable accounts in a prompt manner when personnel left their positions
because:

   •		 system representatives for most DTRA systems reviewed were not notified when
       personnel left the agency and
   •		 DTRA system administrators did not consistently review information system
       accounts that had not been used in a 30-day period.

Notification of Personnel Departures
System representatives were not always notified when personnel left DTRA. DTRA
Directive 8500.01 states that users and supervisors are responsible for notifying system
administrators or IA officers when access is no longer required. However, many
accounts continued to be active well after personnel left the agency. DTRA uses an
automatically generated e-mail to notify system personnel of the requirement to disable
accounts. However, DTRA does not include representatives from all DTRA systems in
the e-mail. Instead, this e-mail is sent only to those personnel who voluntarily request
that DTRA include them in the e-mail distribution. DTRA includes representatives that
oversee the DTRA networks in the e-mail, but did not include representatives from the
majority of the other information systems that we reviewed. During discussions with
representatives from some of the systems, they informed us that they have no way of
knowing when personnel leave the agency other than word of mouth. The out-processing
e-mail could be an effective control if expanded to include representatives from all
DTRA information systems. DTRA should notify representatives from all DTRA
information systems when personnel leave the agency.

Review of Inactive Accounts
DTRA system administrators did not consistently review information system accounts
that had not been used in a 30-day period. DTRA Directive 8500.01 states that system
administrators should suspend user accounts and passwords that have not been used in a
30-day period. All 17 accounts that we identified as not disabled properly were active for
more than 30 days after the personnel left the agency. Further, 66 of the 87 accounts


                                            19


disabled by DTRA were active for more than 30 days after the personnel had left the
agency. We understand that some accounts may need to remain active for specific
reasons (for example, travel); however, this should be on an exception basis. DTRA
should emphasize the importance of performing routine reviews of active accounts and
suspending user accounts and passwords that have not been used in a 30-day period in
accordance with DTRA guidance.

Unauthorized Access to Sensitive Information
As a result of not notifying the appropriate system representatives and not having a
process to identify inactive accounts, unauthorized individuals could have accessed
sensitive information within DTRA information systems and networks. All of the
systems we reviewed except one were reported as either mission-critical or mission-
essential systems. Additionally, accounts for some systems containing classified
information were not disabled promptly. However, we found no instances of
unauthorized access for the active accounts we identified that should have been disabled.
Maintaining proper account management procedures will help ensure the confidentiality
and integrity of information in DTRA’s information systems.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director, Defense Threat Reduction Agency:

       1. Notify system representatives for each of the Defense Threat Reduction
Agency information systems when Defense Threat Reduction Agency personnel,
contractors, or other visitors leave the agency.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency will provide system
representatives with personnel departure dates. Further, he stated that the system
representatives will develop procedures to ensure appropriate user account management
and maintenance.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.

       2. Establish a process to ensure that active accounts are reviewed at least
monthly, and accounts and passwords that have not been used in a 30-day period
are suspended for all systems in accordance with Defense Threat Reduction Agency
guidance.

Defense Threat Reduction Agency Comments
The Director, Defense Threat Reduction Agency, agreed. The Director, Defense Threat
Reduction Agency, stated that the Defense Threat Reduction Agency disabled all


                                           20


accounts identified in the report. Further, he stated that the Defense Threat Reduction
Agency will develop a monthly review process for disabling inactive accounts.

Our Response
The Defense Threat Reduction Agency comments are responsive, and the actions meet
the intent of the recommendation.




                                            21


Appendix. Scope and Methodology
We conducted this performance audit from June 2009 through February 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Review of the Information Assurance Workforce
We met with personnel from DTRA, the Defense-Wide Information Assurance Program
from the Office of the Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer, the Civilian Personnel Management
Service, and the Defense Manpower Data Center.

We reviewed DOD Directive 8570.01 and DOD 8570.01-M. We also reviewed
memoranda issued by the Director, Civilian Personnel Management Service and the
Under Secretary of Defense for Personnel and Readiness on June 4, 2007, and August 27,
2008, respectively.

We reviewed DTRA’s 2009 FISMA response, which identified DTRA’s IA workforce
and their certification status. We attempted to verify the response by reviewing
supporting documentation; however, we found that DTRA did not maintain adequate
documentation to support the response. With the assistance of the DTRA official
responsible for compiling IA personnel data, we manually examined each number on the
FISMA response and the supporting documentation. We attempted to verify certification
information and identify additional IA personnel certifications by sending e-mails to the
IA personnel originally identified by DTRA as performing IA functions, meeting with
selected program managers, and meeting with contracting administrative personnel. We
asked personnel to provide supporting documentation that showed that IA personnel
obtained DOD-approved IA baseline certifications and computing environment
certifications as required in DOD 8570.01-M.

We determined whether DTRA had entered IA workforce information into the Defense
Civilian Personnel Data System. We also determined whether DTRA personnel had
released their IA information using the Defense Workforce Certification Application.

Disabling of Accounts
We met with personnel from DTRA and we reviewed DOD Directive 8500.01E and
DOD Instruction 8500.02. We also reviewed NIST Special Publication 800-53 and
DTRA Directive 8500.01.

We decided to review the most sensitive systems at DTRA. We selected 21 systems that
DTRA reported as either mission-critical or mission-essential for our review. We also
added one system that DTRA reported as mission-support; however, we believe that it


                                           22


may have been reported incorrectly. During our first site visit, we determined from
DTRA personnel that four of the systems we included were groups of hardware and
software, such as routers, switches, repeaters, and intrusion detection services, used to
enable the DTRA systems. Also we found that one system had been replaced by another
system. The program manager for the systems told us that it was no longer in use. As a
result, we included 17 systems in our review of disabling accounts.

We requested and obtained listings of all active accounts for each of the 17 systems. We
also requested and obtained a listing of active and departed personnel with personnel that
had departed as far back as November 2000. Additionally, we requested and obtained a
listing of all personnel actions that related to personnel leaving the agency (for example,
retirements, terminations, and resignations). We compared the listings to determine if the
listings of active accounts included any personnel who had left the agency. We then
determined how long the account had inappropriately been active based on the departure
dates of the personnel. For the active accounts for personnel that had left the agency, we
determined if unauthorized access was gained by the personnel after they departed by
reviewing the last login dates, if available. We eliminated many entries in our results
where personnel had departed as one category of personnel and came back as another and
was still active under that other category (for example, military personnel left the agency
and returned as contractors and were still current in their database). For the personnel
who were listed as departing in multiple categories on different dates, we used the most
recent date to compare to the account deletion dates (for example, military personnel who
left the agency and returned as contractors and then left the agency at a later date).

We also requested disabled account listings with the dates that the accounts were disabled
for each of the 17 systems reviewed. We received only four disabled account listings
with disabled dates that we could use for our review mainly because of system
constraints. For those four systems, we compared the disabled accounts listings to the
active and departed personnel listing to determine the length of time the accounts
remained active prior to being disabled. However, we excluded the following types of
accounts from our review because we could not determine when the account should have
been disabled:

    •   personnel who still worked at DTRA in any capacity,
    •   personnel who left DTRA after the disabled date, and
    •   personnel who we could not match to the active and departed personnel listing.

For the personnel who were listed as departing in multiple categories on different dates,
we used the most recent date to compare to the account deletion dates. As a result, we
were able to review 87 accounts within the 4 systems.

Use of Computer-Processed Data
We did not use computer-processed data to determine whether personnel obtained the
appropriate certifications. Instead, for those personnel identified by DTRA personnel as
part of the IA workforce, we obtained electronic and hard-copy supporting
documentation that indicated personnel obtained the appropriate certifications.


                                            23

We relied on data from DTRA’s Secure Access database that includes information on all
current and departed personnel. The Secure Access database identifies the departure date
of those personnel who have left the agency, which we used in our analysis of whether
DTRA disabled accounts in a timely manner. We did not rely on the departure dates for
our analysis of active accounts within DTRA systems because we verified the departure
dates through obtaining other supporting documentation. However, we relied on the
departure dates in the Secure Access database for our analysis on determining
whether disabled accounts were disabled in a timely manner for personnel. We selected a
judgmental sample for the 87 accounts reviewed and requested supporting documentation
for the sample of accounts to verify the personnel departure dates. The supporting
documentation validated the departure dates for the accounts we selected. As a result, we
believe we can sufficiently rely on the departure dates in the Secure Access database for
our analysis.

Prior Coverage
No prior audit coverage has been conducted over the last 5 years on certification of IA
personnel or disabling of accounts at the Defense Threat Reduction Agency. However,
the Government Accountability Office (GAO) has issued one report discussing controls
over the identification of IA personnel within Defense agencies. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov.

GAO
GAO Report No. GAO-07-528, “Information Security - Selected Departments Need to
Address Challenges in Implementing Statutory Requirements,” August 2007




                                           24


Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer Comments




                               OFFICE OF THE ASStST
                                             ASSISTAN
                                                   ANTT SEC
                                                        SECRETARY
                                                            RETARY OF DEFENSE
                                                     6000 DEFENSE PENT PENTA A GON
                                                     ASHINGTON , D ,. C . 2030
                                                   W ASHINGTON,           2030106000
                                                                               j·60oo




    NrTWO
     IETWOAII
           KS   'IN O
              S "N
     I N FO/
         F01lU.A  TlON
              """ nO N
     IN f[GIt
        TtGR ..
              Ano
                nO N
                   ,..




               MEMORANDUM FOR INSPECTOR
                              INS PECTOR GENERA
                                         GENERAL,L, DE
                                                    DEPARTMENT
                                                       PARTMENT OF DEFENSE
                              (A TIN: AUDITING; REA
                                                READINESS,
                                                    D INESS, OPERATIONS AND
                                  SUPPORT)

               SUBJECT:
               SUB JECT: Selected ConContro
                                         trolls fo
                                                forr In formation                  Defense
                                                        formation Assurance at the De fense Threat
                         Reduc
                         Red uclt io
                                  ionn Agency Pr Projecl
                                                    oject Numb
                                                             mbeer: D2009
                                                                    D2009--DOOOLB
                                                                            OOO LB-02
                                                                                    -02 16.000 dated
                         February 16,20 10

                         This is in rrespo nse 10
                                      esponse  to Drraft Report (attached) date
                                                                           daledd Feb ruary 16 , 20
                                                                                  February          10, rreque
                                                                                                 2010,    equess tin g
               comme
               comments
                     nts on the fi
                                findings
                                   ndings and recommenda
                                              recommendattions contained in the draft repo
                                                                                      report
                                                                                           rt..

                       ASD(NII)
                       ASD(N II )I/ DoD CIO conc concursurs a nd has incorporaled
                                                                       incorporated inlto C hange 2 of oflhe
                                                                                                          the D oD
                             hi ch is c urre
               8570.01-M, which           rrenntll y be
                                                     beiing sltaffe
                                                               affedd (N 1I000 192- 10)
                                                                      (N1I000192-         thee req
                                                                                     0),, Ih       uirement
                                                                                               requireme    fo r ce
                                                                                                         nl for     rtified
                                                                                                                 certified
               fIA Workforce Me
                              Members
                                    mbers to request re lease of the ir certification
                                                                             certification status to thhe DoD via th  thee
                Defense
                Defe nse Workforce Certi
                                      Certification
                                             fi cation Application
                                                         Applicat ion (DWCA).
                                                                        (DWCA) . We expect Change 2 to th        thee 00
                                                                                                                      000 0
               8570.0 1-M
               8570.01-  M 10
                           to be pub
                                   publis
                                               Click to add JPEG file
                                       lishhed by April 30  30,, 20 10.

                         Thank
                          hank yo
                               youu fo
                                    forr th
                                         thee opportu
                                              opportunni ty to comme
                                                               commennt on th
                                                                           thee dra        eport
                                                                                           epo rt..




                                                              cc~i~~,:::::~,,=
                                                                4f.~:"::::;~,,=
                                                                   (Info~ation
                                                                   (Info:t;alion and Ident
                                                                                     Idenlily
                                                                                           ity Assurance)

               Attac hm ents:
               As sstated




                                                                                25
Defense Threat Reduction Agency Comments






                                Defense Threat Reduction Agency
                                  8725 John J.
                                             J, Kingman Road
                                                          Road,, MSC 6201
                                        Fort Belvoir, VA 22060-6201



                                                                                  MAR 2 6 2
                                                                                          2010

      MEMORANDUM FOR DEPAR
                     DEPARTMENT
                          TMENT OF DEFENSE INSPECTOR G ENERAL

      SUBJECT:             Threatt Reduction Agency (DTRA) Response io the Discussion
      SUBJ ECT : Defense Threa
                 Draft ofa
                        of a Proposed Report
                                       Report,, Project No
                                                        No.. D2009-DOOO
                                                             D2009-DOOOLB-0216.000,
                                                                        LB-0216.000,
                 "Selected
                 '''Selected Controls for Infonnation Assurance at the Defense Threat
                 Reduction Agency"

             Thank you for the opportunity to exexpand
                                                   pand our response
                                                             respon se dated March 22, 2010, to
      the subject report regarding DTRA's infonnation assurance controls. OUf expanded
      responses assign completion dates for each recommendation and clarifies our previous
      submission. As stated in our first
                                    firsi response
                                          response,, the Chief Inform
                                                               Information
                                                                      ation Officer is in the
      process of documenting policy, processes
                                       processes,, and procedures related to infonnation
      assurance.. As that documenta
      assurance            documentation
                                     tion is completed, we will provide your office copies.



                                  Click to add JPEG file

                                                       3:;;::::: c          S
                                                      Kenneth A. Myers
                                                      Director

      Anachment:
      Attachment:
      As stated




                                                                  26
    DTRA ACTIONS TO ADDRESS RECOMMENDA
                             RECOMMENDAnONS   nONS IN DoD IG REPORT
                  PROJECT NO
                          NO.. D2009
                               D2009--DOOOLB
                                      DOOOLB-- 02
                                               0216
                                                  16..000


Recommendation A.I: In
                    Informat
                       formation
                             ion Assurance Workforce Personnel

       DTRA Ac
            Actti ons:

                A.I.a
                A.I.a.. Concur. DTRA will implement a process and designate personnel
to prope rl y identify the infonnation assurance workforce. D TRA ' s Ch ief
   properly                                                                            Infonnation
                                                                                   eflnformation
                                DTR..\ 's Human Cap
Officer, in conjunction with DTR.O\'s              Capita itall Office and Agency program
managers, winwi1l identify information assurance technical and managerial positions by
May 15, 2010. DTRA will review the app licability
                                                icabi li ty of personnel certifica   ti ons against
                                                                            certifications
                    Information Assurance Tcchnical1evc1
their appropriate lnformution                Tcchnical 1evel and their Information Ass urance
Management level. T hese ac     ti ons will be comple
                              actions          completted as we update position descriptions
during the National Security Personnel
                                Personne l System (NSPS) transi   transition
                                                                        tion to the General Schedule
(GS) Sys
      System
          tem on June 6, 2010.

             A.
             A.Il .h.   oncur . DTRA will procure or deve
                  .b. C oncur.                       devellop a too
                                                                tool/ process to track
                                                                    l/process
information assurance personnel. This action will be completed by August 1,,2010.
                                                                                2010.

                               Click to add JPEG file
               A.l.c. Concur. DTRA will initially develop a Microsoft SharePoint si te as
               A.I.c.
a tool to track those identified as members of the IA workforce. T hi
                                                                   hiss will be comple
                                                                                completed
                                                                                       ted
by August 1I,,2010.
               2010.

                A.I.d.
                A .I.d. Co"ncur
                          Co'n eur.. DTRA issued a Designated Approving Authority letter on
January 0 , 2010
             20 10 , to the lTnforma
                              nfonnattion Techno
                                          Technology
                                                  logy Support Services performer d irecting
          achieve
them to ach   ieve compliance withwi th DoD 8570.0
                                             8S70.01-M
                                                     1-M,, "Informatio
                                                           "Informationn Assurance Training ,
Certification, and Workforce Management
                                    Management,," infonnat
                                                    infonnatiion assurance workforce
certi fication requirements within 6 mont
certification                            months.
                                              hs.

               A.I. e . Concur. DTRA will maintain certifications within the Microsoft
Share Point site and as ha  rd copy within the in
                         hard                  information
                                                  formatio n assurance program managers'
        This
office. Th    actionn will he complctcci
           is actio           completer! by Au  gust 1, 2 0110.
                                            August           O.

              A.l.f. Concur
                      Concur.. DTRA will enter the infonnation
                                                       information assurance workforce
infonmation into Defense Civili
infotrnation               Civilian
                                 an Personnel Data System (DCPDS). DT RA's         RA ' s Chief
Infonnation Officer , in conjunc  tion with DTRA's H uman Capital Office and Agency
                         conjunction
progr am managers,
program    anagers , will identify information   assura nc e technical and managerial
                                     nfo rmation assuranc                      rnanagt:rial
positions by May 15,2010. DTRA will use DoD 8570.01 and the DoD 8570.01
Frequently Asked Questions (F AQ) guidance on iden   denttifi
                                                           ificc ation of in forma tion assurance
workforce personnel. This data
                             duta will be input into DCPDS by October 1I , 20          0.
                                                                                   20110.




                                                              27
             A.I.g. Concur. DTRA.
             AI.g.             DTR.t\ will require that all personnel in an information
                                                                            infonnation
assurance workforce position authorize the release of their certification information
                                                                          infonnation using
the Defense Workforce Ce
                      Certification
                          rtification Application. This action will be completed by
August 1,20 10.
        1,2010.

Recommendation A.2: Use ofDFAR Supp
                               Supplement
                                    lement 252.239-7001 in New and Exist
                                                                   Existing
                                                                         ing
Contracts

       DTRA Actions: Concur. DTRA will include the required Defense Federal
Acquisition Regu
            Regullation Supplement clause 252.239  -7001 in new contracts. For existing
                                            252.239-7001
contracts, DTRA will scrutinize them for information assurance workforce applicability
    modify as required. '!'hese
and modity               'Ihese actions will be completed within 90 days of id
                                                                            identificati
                                                                               entification
                                                                                         on
ofa contract with information assurance
                               assumnce roles and responsibilities.

Recommendation A.3: Recommendation for ASDlNlIICIO
                                       ASDINII/CIO to Modify DoD 8570.01 -M.

       DTRA Comment: Con Concur;
                             cur; however, DTRA cannot affect this change. No action
required by DTRA fur this recommendation.

Recommendation B.l: Notification to System Repre
                                           Representatives
                                                 sentatives Regarding Departure of
Personnel
                             Click to add JPEG file
       DrRA    Actions' Concur. DTRA will notify system owners of depanure dates of
       DTRA Actions:
personnel. This action will be completed by April 30, 2010. In addition, DTRA systems
        amJ rtpresCIllatives
uwners anti rt:prescntati"es will deve lop work instructions to ensure the proper
management and maintenance or   or user accounts. T his action will be completed by
      30,2010.
April 30, 2010.

Recommendation 8.2:
               B.2: Establish Monthly Review Process

         DTRA Actions: Concur. Accounts that were iden    identified
                                                               tified by the DoD IG were
disabled. DTRA will develop work instructions for the    tlle disabling of accounts and will
establish a monthly review process. This action will be completed by April 30, 20      2010.
                                                                                          IO.
Untii l then , accounts are disabled on "Da
Unt                                     "Date
                                            te Eligible for Return From Overseas
                                                                           Overseas"" or when
an employee terminates employment at DTRA. The DTRA Senior Information
Assurance Officer will co  conduct
                             nduct periodic checks to ensure the accounLs        disabl~d.
                                                                    accounls are tlisabled.




                                               2




                                                           28
